                Additional Actions Are Needed to Ensure
               Section 527 Political Organizations Publicly
                  Disclose Their Activities Timely and
                               Completely

                                   August 2005

                       Reference Number: 2005-10-125




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                     August 10, 2005


      MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                     ENTITIES DIVISION



      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Additional Actions Are Needed to Ensure
                                    Section 527 Political Organizations Publicly Disclose Their
                                    Activities Timely and Completely (Audit # 200410024)


      This report presents the results of our review assessing the effectiveness of the Exempt
      Organizations (EO) function’s efforts to ensure political organizations file timely and
      complete Political Organization Notices of Section 527 Status (Form 8871) and Political
      Organization Reports of Contributions and Expenditures (Form 8872).
      With certain exceptions, Internal Revenue Code (I.R.C.) Section (§) 5271 requires each
      political organization that desires to be tax exempt2 to notify the Internal Revenue
      Service (IRS) using Form 8871 that it is to be treated as a Section 527 political
      organization. An organization must also file a Form 8872 if it has filed Form 8871, has
      not claimed Qualified State or Local Political Organization (QSLPO) status, and has
      received contributions or made expenditures during the calendar year. The Center for
      Public Integrity reported that Section 527 political organizations raised approximately
      $535 million during the 2004 election cycle, compared to approximately $268 million
      raised by Section 527 political organizations during the 2002 election cycle. Given this
      situation, proper disclosure of the financial activities of Section 527 political
      organizations is a concern to both regulators and the general public. Without timely
      and complete contribution and expenditure information, the public cannot gain a true



      1
       I.R.C. § 527 (2003).
      2
       Contributions to these organizations are not included in taxable income if the organizations meet the requirements
      of I.R.C. § 527. However, contributions to Section 527 political organizations are not tax deductible by the
      contributor.
                                                  2

understanding of a Section 527 political organization’s financial information or track the
flow of funds related to legislative issues and political campaigns.
In summary, we identified some degree of noncompliance by both new and existing
Section 527 political organizations in filing their applicable public disclosure reports.
Our audit tests showed that an estimated 580 Section 527 political organizations may
have started receiving contributions or making expenditures before notifying the IRS of
their existence. We estimate these organizations may have received $26.8 million that
should have been reported as taxable income, and as a result, may be subject to
approximately $9.4 million in tax. In addition, Section 527 political organizations did not
timely or completely report their contributions and expenditures by filing Forms 8872.
We estimate that Section 527 political organizations filed 248 untimely or incomplete
Forms 8872. As a result, these organizations may be subject to over $7.5 million in
penalties.
In addition, legislative changes to reporting requirements increased the risk QSLPOs
may not disclose information as required, for several reasons. First, the IRS is not
required to determine if QSLPOs are in compliance with State reporting requirements.
Second, the IRS does not know the degree to which the States are ensuring compliance
with State reporting requirements. Third, EO function management stated there was
little coordination between the IRS and the States regarding this issue. As a result, the
potential exists that organizations claiming QSLPO status may avoid filing documents
detailing contributions and expenditures with either the IRS or the applicable State, and
the public may not receive timely data regarding contributions and expenditures by
State or local Section 527 political organizations.
We recommended the Director, EO, clarify instructions on Form 8872; develop plans for
periodically reviewing the timeliness and completeness of Forms 8871 and 8872 if
implementation of computer changes are delayed beyond January 1, 2006; and ensure
taxes and penalties are assessed, as appropriate, on noncompliant Section 527 political
organizations filing late or incomplete Forms 8871 and 8872. Further, we
recommended the Director, EO, research State laws to determine if the statutes related
to the reporting of political contributions and expenditures by State and local political
organizations have at least the same dollar thresholds as those required by Public
Law 107-2763 for QSLPOs and take appropriate action to ensure Section 527 political
organizations file Forms 8872, as required. Finally, we recommended the Director, EO,
initiate a compliance project to identify a process to address QSLPOs operating beyond
the scope of their authorized activities and identify areas in which coordination with the
States can be improved.
Management’s Response: The Tax Exempt and Government Entities (TE/GE) Division
agreed with the findings and recommendations contained in the report. EO function
management agreed to clarify the instructions for Form 8872 to more clearly explain the
information required in Schedules A and B; develop plans for reviewing the timeliness
and completeness of Forms 8871 and 8872, if implementation of changes to IRS

3
    Pub. L. No. 107-276, 116 Stat. 1929 (2002).
                                            3

computer systems are delayed beyond January 1, 2006; ensure taxes and penalties are
assessed, as appropriate, for Section 527 political organizations that file late and
incomplete Forms 8871 and 8872; and recommended that guidance on reasonable
cause for Section 527 filings be included in next year’s Treasury Guidance Plan. In
addition, the EO function will propose a project to identify a process to address QSLPOs
operating beyond the scope of their authorized activities and will include a review of
relevant State laws to determine if the States have the same reporting thresholds for
contributions and expenditures.
While TE/GE management agreed with our findings and recommendations, they did not
agree with the $17 million reported as outcome measures (additional tax and penalties
for Section 527 political organizations that either received contributions before filing
Form 8871 with the IRS or filed an incomplete or late Form 8872 with the IRS). The
Commissioner, TE/GE Division, responded that based upon the results of the
Section 527 Compliance Project completed by the TE/GE Division, most of the penalties
we calculated would be waived or abated due to the existing general reasonable cause
standard. In addition, EO function management informed us that although the Section
527 Compliance Project did not include untimely Forms 8871, the additional taxes owed
based on late Forms 8871 could also be subject to being waived due to reasonable
cause and, therefore, may not be as much as we estimated. Management’s complete
response to the draft report is included as Appendix VI.
We believe the $17 million in Outcome Measures is still an accurate reflection of the
amount of additional taxes and penalties that could be assessed for noncompliant
Section 527 political organizations. Until appropriate enforcement action is taken on
noncompliant Section 527 political organizations, there is an increased risk that these
organizations may continue to submit untimely and incomplete Forms 8871 and 8872.
The Director, EO, recommended to IRS Counsel and the Department of the Treasury
that specific guidance on reasonable cause for Section 527 filings be included for
consideration in next year’s Treasury Guidance Plan. As noted in management’s
response, this will allow the IRS to ensure the appropriate assessment of taxes and
penalties for noncompliant Section 527 political organizations.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
        Additional Actions Are Needed to Ensure Section 527 Political Organizations
                  Publicly Disclose Their Activities Timely and Completely




                                                  Table of Contents


Background ............................................................................................... Page 1
Section 527 Political Organizations Are Not Always Reporting
Contribution and Expenditure Information Timely and Completely............ Page 3
         Recommendations 1 through 3:.....................................................Page 12

Legislative Changes to Reporting Requirements Increase the Risk
That Section 527 State or Local Political Organizations May Not
Disclose Information As Required ............................................................. Page 13
         Recommendation 4: .......................................................................Page 16
         Recommendation 5: .......................................................................Page 17

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 18
Appendix II – Major Contributors to This Report ....................................... Page 20
Appendix III – Report Distribution List ....................................................... Page 21
Appendix IV – Outcome Measures............................................................ Page 22
Appendix V – Organizations Required to Notify the Internal Revenue
Service of Section 527 Status and Report Contributions
and Expenditures ...................................................................................... Page 25
Appendix VI – Management’s Response to the Draft Report .................... Page 27
      Additional Actions Are Needed to Ensure Section 527 Political Organizations
                Publicly Disclose Their Activities Timely and Completely

                                 Political organizations are organized and operated primarily
Background
                                 to accept contributions and make expenditures to influence
                                 the selection, nomination, election, or appointment of any
                                 individual to Federal, State, or local public office. There are
                                 a variety of political organizations, including political
                                 parties; campaign committees for candidates for Federal,
                                 State, or local office; and political action committees.
                                 With certain exceptions, Internal Revenue Code (I.R.C.)
                                 Section (§) 5271 requires political organizations that desire
                                 to be tax exempt2 to notify the Internal Revenue Service
                                 (IRS) that it is to be treated as a Section 527 political
                                 organization. Additional information on who is required to
                                 file is included in Appendix V. To notify the IRS, the
                                 political organization must electronically file a Political
                                 Organization Notice of Section 527 Status (Form 8871). In
                                 addition, Section 527 political organizations must file an
                                 amended Form 8871 within 30 days of the occurrence of a
                                 material change to the organization and file a final
                                 Form 8871 within 30 days of termination.
                                 A Section 527 political organization must also file a
                                 Political Organization Report of Contributions and
                                 Expenditures (Form 8872) if it has filed Form 8871, has not
                                 claimed Qualified State or Local Political Organization
                                 (QSLPO) status, and has received contributions or made
                                 expenditures during the calendar year. A Section 527
                                 political organization with contributions or expenditures less
                                 than $50,000 can file the Form 8872 either electronically or
                                 on paper.
                                 The Bipartisan Campaign Reform Act of 2002 (BCRA)3
                                 significantly changed Federal campaign law. The BCRA
                                 prohibits the raising and spending of “soft money”4 by
                                 Federal Government officeholders and candidates and
                                 severely restricts the use of soft money by State and local


                                 1
                                   I.R.C. § 527 (2003).
                                 2
                                   Contributions to these organizations are not included in taxable income
                                 if the organizations meet the requirements of I.R.C. § 527. However,
                                 contributions to Section 527 political organizations are not tax
                                 deductible by the contributor.
                                 3
                                   Pub. L. No. 107-155, 116 Stat 81 (2002).
                                 4
                                   Soft money is money given to political parties that is not subject to
                                 Federal contribution and spending limits.
                                                                                                  Page 1
Additional Actions Are Needed to Ensure Section 527 Political Organizations
          Publicly Disclose Their Activities Timely and Completely

                           parties related to Federal Government election activities.
                           Experts suggested the BCRA would result in increased
                           contributions to Section 527 political organizations. News
                           reports seem to have confirmed the expectations of
                           increased activity by Section 527 political organizations.
                           The Center for Public Integrity reported that Section 527
                           political organizations raised approximately $535 million
                           during the 2004 election cycle, compared to approximately
                           $268 million raised by Section 527 political organizations
                           during the 2002 election cycle. Given this situation, proper
                           disclosure of the financial activities of Section 527 political
                           organizations is a concern to both regulators and the general
                           public.
                           This concern has also been raised by the media. For
                           example, reports released by public interest groups and
                           various media sources during 2004 have indicated
                           Section 527 groups are not reporting all contributions and
                           expenditures to the IRS. This incomplete information
                           includes accounts of Section 527 political organizations
                           filing returns late and filing amended returns with additional
                           contributions of at least $100,000, including 9 specific
                           instances in which the total gap was $1 million or more. It
                           was also reported that 1 organization filed 7 Forms 8872 at
                           the same time to cover a 3-year period that included over
                           $300,000 in contributions and expenditures.
                           On November 2, 2002, Public Law 107-2765 was enacted,
                           amending the I.R.C. § 527. The Congress implemented
                           Public Law 107-276 to improve the quality of information
                           disclosed by Section 527 political organizations and to
                           enable the public to review information that political groups
                           disclose to the IRS. In addition, the law retroactively
                           changed the filing requirements for certain State and local
                           political organizations. In response to the legislation, the
                           IRS Tax Exempt and Government Entities (TE/GE)
                           Division implemented a new Political Organization Filing
                           and Disclosure (POFD) web site. The POFD web site
                           allows political organizations to electronically file
                           Forms 8871 and 8872 and allows the public to view, search,
                           or download the entire database of electronic filings by


                           5
                               Pub. L. No. 107-276, 116 Stat. 1929 (2002).
                                                                                   Page 2
       Additional Actions Are Needed to Ensure Section 527 Political Organizations
                 Publicly Disclose Their Activities Timely and Completely

                                  political organizations. The TE/GE Division is responsible
                                  for ensuring compliance with the requirements of
                                  I.R.C. § 527.
                                  This review was performed in the TE/GE Division
                                  Headquarters Office in Washington, D.C., during the period
                                  August 2004 through March 2005. The audit was
                                  conducted in accordance with Government Auditing
                                  Standards. Detailed information on our audit objective,
                                  scope, and methodology is presented in Appendix I. Major
                                  contributors to the report are listed in Appendix II.
                                  We identified some degree of noncompliance by both new
Section 527 Political
                                  and existing Section 527 political organizations in filing
Organizations Are Not Always
                                  their applicable public disclosure reports. Specifically,
Reporting Contribution and
                                  based on our statistically valid samples of Forms 8871 and
Expenditure Information
                                  8872 filed during the period January 1, 2002, through
Timely and Completely
                                  July 2, 2004, we determined:6
                                        •    There were an estimated 580 Section 527 political
                                             organizations (primarily newly established
                                             organizations) that may have started receiving
                                             contributions or making expenditures before filing a
                                             Form 8871 with the IRS. According to the tax law,
                                             these contributions are considered taxable and must
                                             be reported as ordinary income on the organizations’
                                             tax returns (minus any deductions associated with
                                             the production of that income). We estimate these
                                             Section 527 political organizations may have
                                             received $26.8 million in taxable contributions prior
                                             to filing Forms 8871 and consequently may be
                                             subject to approximately $9.4 million in tax. We
                                             researched the organizations’ U.S. Income Tax
                                             Returns for Certain Political Organizations
                                             (Form 1120-POL) but did not identify any additional
                                             tax reported on the returns related to these
                                             contributions.
                                        •    Both existing and new Section 527 political
                                             organizations did not timely or completely file all
                                             their Forms 8872. According to the tax law, the IRS
                                             can assess a 35 percent penalty on the $21.6 million


                                  6
                                      See details of computations in Appendix IV.
                                                                                           Page 3
Additional Actions Are Needed to Ensure Section 527 Political Organizations
          Publicly Disclose Their Activities Timely and Completely

                                    in contributions and expenditures reported on
                                    248 untimely or incomplete Forms 8872. We
                                    estimate this could be over $7.5 million in penalties.
                               •    Section 527 political organizations also did not file
                                    all their required Forms 8872 during the year. We
                                    determined in 36 of the 277 cases in our Form 8871
                                    sample, organizations did not file 1 or more
                                    Forms 8872. Although the tax law allows the IRS to
                                    assess a penalty for these missed returns, the IRS
                                    would have difficulty determining the penalty
                                    amount because it does not know what contributions
                                    and expenditures were not reported.
                           Exempt Organizations (EO) function management generally
                           agreed with the untimely and incomplete Forms 8871 and
                           8872 in our sample.7 We researched the Section 527
                           political organizations’ accounts included in our samples on
                           the IRS’ database and did not identify any penalties assessed
                           against these organizations. However, management
                           disagreed with the amount of the potential penalties because
                           they believed the results of their 2004 compliance project8
                           showed most of the penalties would not be applicable due
                           to the reasonable cause provision of the law, which allows
                           the penalty to be waived if the omission was due to
                           reasonable cause and not due to willful neglect. In addition,
                           although EO function management did not include untimely
                           Forms 8871 in the compliance project, they advised us the
                           additional taxes owed based on late Forms 8871 would also
                           be subject to being waived due to reasonable cause and
                           therefore may not be as much as we estimated.
                           Without timely and complete contribution and expenditure
                           information, the public cannot gain a true understanding of a
                           Section 527 political organization’s financial information or
                           track the flow of funds related to legislative issues and
                           political campaigns. Timely and complete information will


                           7
                             EO function management did not agree with one exception case
                           because it was a contribution to a candidate committee. However, our
                           review of the case indicated the contribution was received by a political
                           action committee, not a candidate committee.
                           8
                             The EO function’s compliance project on Forms 8872 is explained in
                           detail later in this section of the report.
                                                                                             Page 4
Additional Actions Are Needed to Ensure Section 527 Political Organizations
          Publicly Disclose Their Activities Timely and Completely

                           ensure the public’s ongoing confidence regarding the
                           funding of our nation’s elections.
                           Public Law 106-2309 was passed in July 2000. This law
                           established requirements for certain political organizations
                           to notify the IRS that they were Section 527 organizations
                           and disclose their contributions and expenditures to the IRS.
                           EO function management stated many Section 527 political
                           organizations were not aware of these requirements, and as
                           a result, there was a need to educate these organizations of
                           the filing requirements established by Public Law 106-230.
                           This educational effort continued when the law was
                           amended in November 2002. However, EO function
                           management indicated this lack of awareness was still
                           evident in the 2004 compliance project and further
                           education and outreach, combined with compliance efforts,
                           is needed to bring Section 527 political organizations into
                           compliance.
                           The EO function started to focus on compliance issues in
                           late 2003. In 2004, EO function management requested
                           enhancement of the IRS computer system to more
                           effectively identify Section 527 political organizations that
                           are not filing necessary information as required. As
                           previously mentioned, EO function management initiated a
                           compliance project in August 2004 in an effort to improve
                           reporting and disclosure by Section 527 political
                           organizations. Additional details about EO function
                           management’s actions to address noncompliance are
                           discussed later in the report.
                           Forms 8871 were not always submitted timely
                           We determined that Forms 8871 were not submitted timely
                           in 19 (7 percent)10 of the 277 cases in our sample. Applying
                           this error rate to the population of 8,458 Forms 8871 filed
                           for the period January 1, 2002, through July 2, 2004, we
                           estimate there were 580 Forms 8871 (new and amended) not
                           submitted timely by Section 527 political organizations.




                           9
                              Pub. L. No. 106-230, 114 Stat 477 (2000).
                           10
                             Figure was rounded to 7 percent. Other percentage figures shown in
                           the report are also rounded.
                                                                                         Page 5
Additional Actions Are Needed to Ensure Section 527 Political Organizations
          Publicly Disclose Their Activities Timely and Completely

                           If a political organization does not file a Form 8871 timely,
                           it will not be treated as a tax-exempt organization until the
                           date the Form 8871 is filed. In addition, if a political
                           organization does not timely file an amended Form 8871 to
                           provide notice of a material change, it will not be considered
                           a tax-exempt Section 527 political organization for the
                           period beginning when the change occurred until the
                           amended Form 8871 is filed. As a result, a political
                           organization will need to include any contributions received
                           during this time as taxable income on the Form 1120-POL.
                           Forms 8872 were not always submitted timely and
                           completely
                           Based on our statistical samples, we determined Section 527
                           political organizations did not always file Forms 8872
                           timely or neglected to file the Forms 8872 as required.
                           Specifically, Forms 8872 were not submitted timely in
                           15 (5 percent) of the 299 cases in our Form 8872 sample.11
                           In addition, in 36 (13 percent) of the 277 cases in our
                           Form 8871 sample, Section 527 political organizations did
                           not submit 1 or more required Forms 8872.
                           We also determined electronic Forms 8872 were not always
                           complete. Specifically, 65 (22 percent) of 299 Forms 8872
                           in our sample did not always include the required
                           information. The missing information usually involved
                           contribution information reported on Form 8872,
                           Schedule A,12 such as contributor’s employer and
                           occupation (47 instances) , or expenditure information
                           reported on Form 8872, Schedule B, such as recipient’s
                           employer, occupation, and purpose of the expenditure
                           (39 instances).13 In many instances, these fields included the
                           words “N/A,” “unknown,” or “information requested.”
                           Instructions for Form 8872 do not currently address what an


                           11
                              We considered any Form 8872 filed within 7 days of the due date as
                           timely.
                           12
                              We did not count any information as missing from Form 8872 if the
                           aggregate contribution amounts shown on the return for any contributor
                           were less than $200 for the year. Form 8872 does not require
                           information on contributors if the total amount of their contributions to a
                           Section 527 organization for that year are less than $200.
                           13
                              In 21 of the 65 cases involving incomplete Forms 8872, both
                           Schedules A and B of the sampled Form 8872 were incomplete.
                                                                                             Page 6
Additional Actions Are Needed to Ensure Section 527 Political Organizations
          Publicly Disclose Their Activities Timely and Completely

                           organization should do if it does not have the required
                           information for Schedules A and B. We recognize
                           Section 527 political organizations may not always receive
                           the information required for the Form 8872 from
                           contributors, if they choose not to provide it to the
                           Section 527 political organization. However, Section 527
                           political organizations should know and report the
                           employers and occupations of individuals to whom they
                           make expenditures.
                           In addition, Section 527 political organizations did not
                           always include all contributions and expenditures on the
                           original Forms 8872. In some cases, organizations
                           submitted amended Forms 8872 after the due dates of the
                           original Forms 8872 (ranging from 8 to 281 days later) with
                           additional contributions and expenditures. The amended
                           amounts would be subject to the 35 percent penalty for late
                           filing.
                           Based on our results, we estimate, from the population of
                           2,100 Forms 8872 filed during the period January 1, 2002,
                           through July 2, 2004, there were 74 Forms 8872 not
                           submitted timely by tax-exempt organizations that may
                           be subject to $3.5 million in penalties. We also estimate
                           174 Forms 8872 filed during this period did not contain
                           complete information and may be subject to $4 million in
                           penalties.
                           We also analyzed a judgmental sample of 30 Forms 8872
                           filed on paper by Section 527 political organizations and
                           determined that 4 (13 percent) of the 30 were untimely.
                           These Forms 8872 included contributions and expenditures
                           of almost $120,000 for which the IRS could assess penalties
                           of approximately $42,000.
                           Due dates for filing a Form 8872 vary depending on
                           whether the Form is due during a calendar year that includes
                           a regularly scheduled election, general election, primary
                           election, or nominating convention for a Federal
                           Government office. During a calendar year that includes
                           a regularly scheduled Federal election (e.g., 2000, 2002,
                           and 2004), a Section 527 political organization can choose
                           to file its Form 8872 either on a quarterly or monthly basis,
                           but it must file on the same basis for the entire calendar
                           year. In addition, a Section 527 political organization must
                                                                                 Page 7
Additional Actions Are Needed to Ensure Section 527 Political Organizations
          Publicly Disclose Their Activities Timely and Completely

                           file a preelection report and postelection report during
                           calendar years that include regularly scheduled elections.
                           The preelection report is generally filed 12 to 15 days before
                           the election, and the postelection report is required to be
                           filed within 30 days after the election. In nonelection years
                           (e.g., 2001, 2003), Form 8872 must be filed either
                           semi-annually or monthly.
                           The IRS has the legal authority to impose penalties if a
                           Section 527 political organization fails to file Form 8872 by
                           the due date. Penalties may also be assessed if the
                           organization reports incorrect information or fails to report
                           all of the information required on the Form. This could
                           include information such as identity of contributor,
                           contributor’s address, date/amount of contribution,
                           contributor’s employer/occupation, recipient’s identity,
                           recipient’s address, date/amount of expenditure, and
                           recipient’s employer/occupation. The penalty is 35 percent
                           of the total amount of contributions and expenditures not
                           properly reported. The penalty can be waived if the
                           Section 527 political organization establishes reasonable
                           cause that the late or incomplete filing was not due to willful
                           neglect.
                           The EO function initiated actions to improve oversight
                           of Section 527 political organizations’ compliance with
                           I.R.C. § 527 filing requirements
                           As stated previously, EO function management has initiated
                           actions to improve the reporting and disclosure of
                           information by Section 527 political organizations. In
                           May 2002, the IRS issued Notice 2002-34, which stated the
                           IRS would not assert any tax, penalty, or interest that arose
                           solely because the political organization failed to file or
                           filed an incorrect return, as long as the political organization
                           filed a return or corrected return by July 15, 2002. EO
                           function management officials stated, due to resource
                           limitations and changes in the law in November 2002 that
                           required the IRS to redesign the POFD web site, their
                           priority was to finish work on the POFD web site before
                           focusing on compliance activities. After the update to the
                           POFD web site was finished in July 2003, the EO function
                           resumed focus on I.R.C. § 527 compliance issues. To date,


                                                                                    Page 8
Additional Actions Are Needed to Ensure Section 527 Political Organizations
          Publicly Disclose Their Activities Timely and Completely

                           EO function management has initiated two significant
                           activities in this area:
                                •   Requesting modification of the IRS computer system
                                    to systemically identify Section 527 political
                                    organizations that have not adhered to their filing
                                    obligations.
                                •   Initiating a compliance project to identify
                                    Section 527 political organizations whose filed
                                    Forms appear to be incomplete, were filed late, or
                                    were amended and are materially different from the
                                    original filing.
                           In late 2003, the EO function began work on an action plan
                           to address potentially noncompliant political organizations
                           and issued a project proposal in February 2004. In
                           July 2004, EO function officials started developing three
                           Requests for Information Services14 (RIS) to more
                           effectively identify Section 527 political organizations that
                           have not filed Forms 8871 and 8872 as required.
                           Collectively, these RISs will modify the Business Master
                           File15 (BMF) to allow the posting of information from
                           Forms 8871 and 8872 to this computer system.16 Currently,
                           these Forms are entered only on the POFD web site. In
                           addition, these RISs will enable IRS management to identify
                           organizations not meeting their filing obligations and issue
                           notices to these organizations. EO function management
                           stated updates to the BMF are major programming changes
                           that require substantial Modernization and Information
                           Technology Services staff resources. EO function
                           management added that a structured process has been
                           established to control and prioritize system changes;
                           however, this process requires substantial lead time for
                           implementation. EO function personnel indicated these


                           14
                              A formal memorandum from any Customer Organization requesting
                           support for changes to current or planned programming, computer
                           hardware, Commercial Off-the-Shelf software, system testing, etc.
                           15
                              The IRS database that consists of Federal tax-related transactions and
                           accounts for businesses. These include employment taxes, income taxes
                           on businesses, and excise taxes.
                           16
                              The BMF was modified in 2000 to show whether Section 527 political
                           organizations filed Forms 8871 and 8872, but the modification did not
                           allow information from these forms to be posted to the BMF.
                                                                                            Page 9
Additional Actions Are Needed to Ensure Section 527 Political Organizations
          Publicly Disclose Their Activities Timely and Completely

                           RISs were approved for implementation on January 1, 2006.
                           If implementation of the requests are delayed due to the
                           complexity involved in requesting changes to IRS computer
                           systems, the possibility exists that another election cycle
                           may proceed without automating the process to verify that
                           Section 527 political organizations are complying with
                           Public Law 107-276.
                           As part of the IRS’ renewed emphasis on enforcement of the
                           tax laws, the EO function initiated a project to identify the
                           noncompliance issues related to late-filed returns,
                           incomplete returns, and amended returns filed by
                           Section 527 political organizations. Specifically, the EO
                           function analyzed the POFD web site and contacted
                           30 organizations that appeared not to have fully met their
                           filing and disclosure requirements relating to contributions.
                           These 30 organizations were identified based on the
                           following criteria:
                                  •   Forms 8872 with missing contributor information,
                                      such as occupation and employer, for at least
                                      $100,000 in contributions or for 10 percent of the
                                      total contributions.
                                  •   Amended Forms 8872 filed 30 days or more after
                                      the initial filings, and the amendments either
                                      represented changes equaling at least $100,000 or
                                      10 percent of the total contributions.
                                  •   Forms 8872 filed at least 2 weeks after the due date.
                           For each organization included in the project, the EO
                           function identified all areas of potential noncompliance
                           (late, amended, and missing information) and included a
                           review of contributions and expenditures. The project’s
                           preliminary results17 indicate 22 of the 30 organizations
                           established reasonable cause for not filing and disclosing the
                           information timely and completely. As a result, no penalties
                           were assessed. For the eight remaining organizations, the
                           IRS:




                           17
                                Preliminary results as of January 14, 2005.
                                                                                    Page 10
Additional Actions Are Needed to Ensure Section 527 Political Organizations
          Publicly Disclose Their Activities Timely and Completely

                                •   Determined three organizations believed they were
                                    not required to file Forms 8872 because they
                                    qualified for QSLPO status.18
                                •   Assessed penalties in two cases.
                                •   Was still working two cases.
                                •   Closed one case even though the organization filed
                                    incomplete Forms 8872 because further review of
                                    the organization’s records would be necessary to
                                    sustain the penalty.
                           According to the EO function, there is currently no specific
                           reasonable cause standard in I.R.C. § 527 for failure to
                           comply with the filing and disclosure requirements of
                           Public Law 107-276. As a result, EO function management
                           stated they will not assess a penalty under I.R.C. § 527(j) if
                           the organization can show the cause of the untimeliness or
                           incompleteness was not due to willful neglect. This appears
                           easy for Section 527 political organizations to meet and has
                           effectively prevented the IRS from assessing penalties for
                           noncompliance. As of January 2005, IRS management has
                           indicated this penalty has been assessed only twice (as part
                           of the compliance project).
                           Our research of the IRS Penalty Handbook showed there is
                           one reasonable cause standard applicable to all taxpayers.
                           Reasonable cause relief is generally granted when taxpayers
                           exercise ordinary business care and prudence but
                           nevertheless were unable to comply with the law because of
                           circumstances beyond their control. EO function
                           management informed us the Penalty Handbook was used to
                           determine if relief was appropriate for the compliance
                           project cases.
                           EO function management should continue to focus on
                           noncompliant Section 527 political organizations to identify
                           the reasons for the late/incomplete filings and to address
                           noncompliance through a combination of enforcement
                           actions and education and outreach. The assessment of
                           taxes and penalties for incomplete or untimely filing of


                           18
                             The QSLPO status is explained in detail in the next section of the
                           report.
                                                                                          Page 11
Additional Actions Are Needed to Ensure Section 527 Political Organizations
          Publicly Disclose Their Activities Timely and Completely

                           Forms 8871 and 8872, when appropriate, could lead to
                           increased accountability and disclosure by Section 527
                           political organizations. Without the use of penalties, the
                           IRS’ ability to ensure more accurate and complete filing of
                           contribution and expenditure information for Section 527
                           political organizations is severely limited.

                           Recommendations

                           The Director, EO, should:
                           1. Clarify the instructions for Form 8872 to more clearly
                              explain what information is required in Schedules A and
                              B of Form 8872.
                           Management’s Response: The instructions to the
                           Form 8872 are being amended to more clearly explain what
                           information is required based on the results of the
                           Section 527 Compliance Project, particularly relating to the
                           occupation and employer information for individuals. The
                           Director, EO, will request the amended instructions be
                           included in the next revision of the Form 8872.
                           2. Develop plans for periodically reviewing the timeliness
                              and completeness of Forms 8871 and 8872 if
                              implementation of the RISs related to the Forms 8871
                              and 8872 are delayed beyond January 1, 2006.
                           Management’s Response: If implementation of the RISs is
                           delayed, the Director, EO, Rulings and Agreements, will
                           develop a plan for reviewing the timeliness and
                           completeness of Forms 8871 and 8872. EO function
                           management will monitor the anticipated implementation of
                           the RISs and if potential problems arise will establish an
                           appropriate action plan for reviewing the timeliness of the
                           forms.
                           3. Ensure taxes and penalties are assessed, as appropriate,
                              for Section 527 political organizations that file late and
                              incomplete Forms 8871 and 8872.
                           Management’s Response: The Director, EO, agrees taxes
                           and penalties should be assessed, as appropriate, and will
                           take steps to address compliance in this area. To ensure
                           appropriate assessment, the Director, EO, has recommended
                           to IRS Counsel and the Department of the Treasury that
                                                                                 Page 12
       Additional Actions Are Needed to Ensure Section 527 Political Organizations
                 Publicly Disclose Their Activities Timely and Completely

                                  guidance on reasonable cause for Section 527 filings be
                                  included for consideration for next year’s Treasury
                                  Guidance Plan.
                                  However, the Commissioner, TE/GE Division, disagreed
                                  with the $17 million reported as Outcome Measures based
                                  upon the results of the Section 527 Compliance Project, that
                                  showed most of the penalties we calculated would be
                                  waived or abated due to the existing general reasonable
                                  cause standard.
                                  Office of Audit Comment: We believe the $17 million in
                                  Outcome Measures is still an accurate reflection of the
                                  amount of additional taxes and penalties that could be
                                  assessed for noncompliant Section 527 political
                                  organizations. Until appropriate enforcement action is taken
                                  on noncompliant Section 527 political organizations, there
                                  is an increased risk that these organizations may continue to
                                  submit untimely and incomplete Forms 8871 and 8872. The
                                  Director, EO, recommended to IRS Counsel and the
                                  Department of the Treasury that specific guidance on
                                  reasonable cause for Section 527 filings be included for
                                  consideration in next year’s Treasury Guidance Plan. As
                                  noted in management’s response, this will allow the IRS to
                                  ensure the appropriate assessment of taxes and penalties for
                                  noncompliant Section 527 political organizations.
                                  Public Law 107-276 created a new category of Section 527
Legislative Changes to
                                  political organization called a QSLPO. A QSLPO is
Reporting Requirements
                                  required to notify the IRS of its existence by filing
Increase the Risk That
                                  Form 8871, but it is required to report its contribution and
Section 527 State or Local
                                  expenditure information to its respective State instead of to
Political Organizations May Not
                                  the IRS. This change increased the risk that QSLPOs may
Disclose Information As
                                  not disclose information as required, for several reasons.
Required
                                  First, the IRS is not required to determine if QSLPOs are in
                                  compliance with State reporting requirements. Second, the
                                  IRS does not know the degree to which the States are
                                  ensuring compliance with State reporting requirements.
                                  Third, EO function management stated there was little
                                  coordination between the IRS and the States regarding this
                                  issue. As a result, the potential exists that organizations
                                  claiming QSLPO status may avoid filing documents
                                  detailing contributions and expenditures with either the IRS
                                  or the applicable State, and the public may not receive

                                                                                        Page 13
Additional Actions Are Needed to Ensure Section 527 Political Organizations
          Publicly Disclose Their Activities Timely and Completely

                           timely data regarding contributions and expenditures by
                           State or local Section 527 political organizations. Without
                           proper disclosure, the IRS and the public may not know if
                           the QSLPOs are operating beyond the scope of their
                           authority, such as by participating in Federal election
                           campaigns.
                           We determined some of the Section 527 political
                           organizations at the State or local level did not always file
                           the required reports of contributions and expenditures with
                           their States, operated beyond the scope of authorized
                           QSLPO activities, or improperly claimed QSLPO status.
                           Based on our audit results, we estimate, with 90 percent
                           confidence from the population of 8,458 Forms 8871 filed
                           during the period January 1, 2002, through July 2, 2004,
                           there were 36619 Section 527 political organizations
                           improperly claiming QSLPO status or not filing Forms 8872
                           with the IRS as required.
                           Section 527 political organizations may not be meeting
                           the requirements for a QSLPO
                           Based on our review of the Form 8871 statistical sample,
                           we determined 39 of the 277 Section 527 political
                           organizations claimed QSLPO status on the Form 8871. Of
                           these 39 cases, we determined 12 (31 percent) did not meet
                           the requirements of Public Law 107-276 as a QSLPO
                           organization and should file Forms 8872 with the IRS.
                           Specifically:
                                •   In nine cases, the activities of the organization did
                                    not relate solely to the purposes of influencing or
                                    attempting to influence the selection, nomination,
                                    election, or appointment of any individual to any
                                    State or local public office or office in a State or
                                    local political organization. In one of the cases, the
                                    organization made contributions to candidates
                                    running for election to the United States Congress.
                                    In the other eight cases, the purpose of the
                                    organization was to support/oppose ballot measures
                                    or other purposes, which appears to be beyond the

                           19
                             Figure was computed by multiplying the percentage of Section 527
                           political organizations improperly claiming QSLPO status by the
                           universe of Forms 8871 (12/277 * 8,458 ≅ 366).
                                                                                       Page 14
Additional Actions Are Needed to Ensure Section 527 Political Organizations
          Publicly Disclose Their Activities Timely and Completely

                                  scope of authorized QSLPO activities. We
                                  identified these issues based on information filed on
                                  the applicable States’ web sites or information filed
                                  with the IRS on Form 8871. These QSLPOs
                                  reported approximately $2.4 million of contributions
                                  and expenditures to their States.
                              •   In one case, State reporting requirements were
                                  not consistent with the requirements of
                                  Public Law 107-276. Specifically, the dollar
                                  thresholds for reporting contributions and
                                  expenditures in that State were higher than those
                                  established under Public Law 107-276. This
                                  QSLPO reported approximately $64,000 of
                                  contributions and expenditures to its State.
                              •   In two cases, we could not locate any report filed
                                  with the State detailing the organization’s
                                  contributions and expenditures.
                           Public Law 107-276 defines QSLPOs as political
                           organizations with the following characteristics:
                              •   All of their exempt functions relate solely to the
                                  purpose of influencing or attempting to influence the
                                  selection, nomination, election, or appointment of
                                  any individual to any State or local public office or
                                  office in a State or local political organization.
                              •   State law requires the organization to report
                                  contribution and expenditure information to the State
                                  that is similar to the information required to be
                                  reported to the IRS.
                              •   The organization files the reports with the State.
                              •   The organization and State make these reports
                                  available to the public.
                              •   No Federal Government officeholder or candidate
                                  controls or materially participates in the
                                  organization, solicits contributions to the
                                  organization, or directs disbursements from the
                                  organization.
                           However, EO function management informed us they do not
                           review or verify whether Section 527 political organizations
                                                                                 Page 15
Additional Actions Are Needed to Ensure Section 527 Political Organizations
          Publicly Disclose Their Activities Timely and Completely

                           qualify for QSLPO status when their Forms 8871 are
                           received. The Forms 8871 are electronically filed and are
                           automatically entered on the POFD web site without going
                           through a manual screening by the IRS. In addition, EO
                           function management explained it is not easy to determine if
                           Section 527 political organizations are valid QSLPOs
                           because the reporting laws in each State are different.
                           Consequently, the EO function would need to research each
                           State’s laws regarding the reporting of political
                           contributions and expenditures to determine if the State
                           statutes meet the requirements of Public Law 107-276. For
                           example, one organization in our sample was from a State in
                           which political action committees receiving contributions
                           totaling less than $750 in a calendar year do not need to
                           report to the State, whereas I.R.C. § 527 requires political
                           organizations to report contributions of more than $500 to
                           the State to qualify for QSLPO status. Since the State
                           statute has a higher reporting requirement than that required
                           in I.R.C. § 527, the organization would not qualify for
                           QSLPO status and should file Forms 8872 with the IRS.
                           A more significant limitation on the IRS is the limited
                           coordination between the IRS and the States regarding
                           QSLPO compliance with State reporting guidelines. EO
                           function management informed us they have not been
                           advised by any States that a political organization has not
                           been reporting its contributions and expenditures as
                           required. We believe the IRS should evaluate this issue to
                           identify potential ways to improve coordination with the
                           States and ensure QSLPOs are complying with reporting
                           guidelines.

                           Recommendations

                           The Director, EO, should:
                           4. Research State laws to determine if the statutes related
                              to the reporting of political contributions and
                              expenditures by State and local political organizations
                              have at least the same dollar thresholds as the
                              requirements of Public Law 107-276 for QSLPOs. For
                              those States whose statutes do not meet the threshold,
                              take appropriate action to ensure Section 527 political
                              organizations file Forms 8872, as required.
                                                                                Page 16
Additional Actions Are Needed to Ensure Section 527 Political Organizations
          Publicly Disclose Their Activities Timely and Completely

                           Management’s Response: The Director, EO, will include a
                           review of relevant State laws as part of the Fiscal Year 2007
                           project discussed in the management response to
                           Recommendation 5.
                           5. Initiate a compliance project to identify a process to
                              address QSLPOs operating beyond the scope of their
                              authorized activities and identify areas in which
                              coordination with the States can be improved.
                           Management’s Response: The Director, EO, has proposed a
                           project to improve the quality of information regarding the
                           number of QSLPOs on the PODF web site, which EO
                           function management believes needs to be completed first.
                           For FY 2007, the Director, EO, will propose a project to
                           identify a process to address QSLPOs operating beyond the
                           scope of their authorized activities and identify areas in
                           which coordination with the States can be improved.




                                                                                Page 17
          Additional Actions Are Needed to Ensure Section 527 Political Organizations
                    Publicly Disclose Their Activities Timely and Completely

                                                                                          Appendix I


                           Detailed Objective, Scope, and Methodology

The overall audit objective was to determine the effectiveness of the Exempt Organizations (EO)
function’s efforts to ensure political organizations file timely and complete Political
Organization Notices of Section 527 Status (Form 8871) and Political Organization Reports of
Contributions and Expenditures (Form 8872). To accomplish this objective, we:
I.         Assessed the EO function’s process for ensuring compliance with Internal Revenue Code
           (I.R.C.) Section (§) 5271 filing requirements for Forms 8871 and 8872.
           A. Interviewed EO function management to obtain background information on I.R.C. § 527
              filing requirements.
           B. Identified controls in place since January 1, 2002, that are designed to determine
              whether Forms 8871 and 8872 are timely and complete when submitted/processed.
           C. Identified the EO function’s efforts since January 2002 to monitor and enforce filing
              compliance and determine if noncompliance is addressed.
           D. Determined if the EO function makes use of compliance cases contained on the Federal
              Election Commission (FEC) and/or State web sites for political organizations to identify
              potential leads about nonfiling, the filing of inaccurate information, and the filing of
              incomplete information with the FEC or States that could be related to Section 527
              political organizations.
II.        Determined if the EO function received timely and complete Forms 8871 and 8872. If
           Forms 8871 and 8872 were not timely or complete, we determined if the EO function
           took appropriate action to address the noncompliance.
           A. Downloaded filing data from the Internal Revenue Service Political Organization Filing
              and Disclosure web site for Forms 8871 and 8872 received during the period
              January 1, 2002, through July 2, 2004.
           B. Consulted with the Treasury Inspector General for Tax Administration Office of
              Chief Counsel on issues discussed in the report.
           C. Selected a statistically valid sample of 277 electronically filed Forms 8871 from a
              universe of 8,458 Forms 8871 filed for the period January 1, 2002, through
              July 2, 2004, to determine if the sampled political organizations filed a timely and
              complete Form 8871, paid any additional tax due, and filed Forms 8872. We also
              determined if political organizations claiming Qualified State or Local Political
              Organization status met the Form 8872 exemption requirements. Our estimates were

1
    I.R.C. § 527 (2003).
                                                                                               Page 18
          Additional Actions Are Needed to Ensure Section 527 Political Organizations
                    Publicly Disclose Their Activities Timely and Completely

                made at 90 percent confidence with an actual error rate of .06859. 2 Based on this
                value, we determined the precision levels of our projections to be the following: for
                the number of untimely Forms 8871 (+2.5 percent), for taxable contributions received
                by these organizations ($5.3 million to $48.3 million), and for the potential tax owed
                by these organizations ($1.9 million to $17 million).
           D. Selected a statistically valid sample of 299 electronically filed Forms 8872 (stratified
              by the total dollar amounts of the contributions and expenditures reported) from the
              universe of 2,100 Forms 8872 filed for the period January 1, 2002, through
              July 2, 2004, to determine if the sampled political organizations filed a timely and
              complete Form 8872, paid any penalty due, and filed a Form 8871. Our estimates
              were made at 90 percent confidence with an actual error rate of .03524 for the
              untimely Forms 8872 and .08292 for the incomplete Forms 8872. Based on this
              value, we determined the precision levels of our projections to be the following:
                1. For the number of untimely Forms 8872 (+1.2 percent), for contributions received
                   and expenditures made ($7 million to $13.3 million), and for potential penalties
                   ($2.4 million to $4.7 million).
                2. For the number of incomplete Forms 8872 (+1.7 percent), for contributions
                   received and expenditures made ($10.8 million to $12.1 million), and for potential
                   penalties ($3.7 million to $4.2 million).
           E. Selected a judgmental sample of 30 electronically filed amended Forms 8872 from a
              universe of 222 amended Forms 8872 filed during the period January 1, 2002, through
              July 2, 2004, to determine if the sampled political organizations filed timely and
              complete Forms 8872. We selected a judgmental sample due to resource considerations.
           F. Selected a judgmental sample of 30 paper-filed Forms 8872 from a universe of
              18,484 paper Forms 8872 filed during the period January 1, 2002, through July 2, 2004,
              to determine if the sampled political organizations filed timely and complete
              Forms 8872. We selected a judgmental sample due to resource considerations.




2
    All decimals in this appendix are rounded to five decimal places.


                                                                                               Page 19
      Additional Actions Are Needed to Ensure Section 527 Political Organizations
                Publicly Disclose Their Activities Timely and Completely

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Director
Jeffrey M. Jones, Audit Manager
Thomas F. Seidell, Lead Auditor
Margaret A. Anketell, Senior Auditor
Kenneth C. Forbes, Senior Auditor
Michael R. Van Nevel, Senior Auditor
Donald J. Martineau, Auditor
Jeffrey E. Williams, Information Technology Specialist




                                                                                      Page 20
     Additional Actions Are Needed to Ensure Section 527 Political Organizations
               Publicly Disclose Their Activities Timely and Completely

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                   Page 21
       Additional Actions Are Needed to Ensure Section 527 Political Organizations
                 Publicly Disclose Their Activities Timely and Completely

                                                                                                  Appendix IV


                                            Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Increased Revenue/Revenue Protection – Potential; $17 million1 in additional tax and
    penalties for Section 527 political organizations2 that met either of the following conditions:
    1) received contributions before filing Political Organization Notice of Section 527 Status
    (Form 8871) with the Internal Revenue Service (IRS) or 2) filed an incomplete or late
    Political Organization Report of Contributions and Expenditures (Form 8872) with the IRS
    (see page 3).
Methodology Used to Measure the Reported Benefit:
We selected two statistically valid samples and one judgmental sample and projected the results
of the statistical samples. The size of each universe and sample is shown in the following table.
The first statistical sample consisted of 277 Forms 8871 electronically filed between
January 1, 2002, and July 2, 2004, that were randomly selected from a Political Organization
Filing and Disclosure (POFD) web site data extract. The second statistical sample consisted of
299 Forms 8872 electronically filed between January 1, 2002, and July 2, 2004, that were
randomly selected from a POFD web site data extract. We stratified this sample by the total
amounts of contributions and expenditures reported into 3 strata - low (total contributions and
expenditures less than $50,000), medium (total contributions and expenditures from $50,000 to
less than $500,000), and high (total contributions and expenditures equal to and over $500,000).
The third sample was a judgmental sample of 30 paper Forms 8872 filed between
January 1, 2002, and July 2, 2004, that were randomly selected from a POFD web site data
extract.




1
  Exempt Organizations management disagreed with the amount of the potential penalties because they believed the
results of their compliance project showed that most of the penalties would not be applicable due to the reasonable
cause provision of the law, which allows the penalty to be waived if the omission was due to reasonable cause and
not due to willful neglect.
2
  Internal Revenue Code Section 527 (2003) requires each political organization that desires to be tax exempt to
notify the IRS that it is to be treated as a Section 527 political organization.
                                                                                                           Page 22
      Additional Actions Are Needed to Ensure Section 527 Political Organizations
                Publicly Disclose Their Activities Timely and Completely



          Sample                   Strata           Size of Universe      Attribute Sample
                                                                                Size
  Sample 1 (Forms 8871)                                   8,458                   277
  Sample 2 (Forms 8872)        Strata 1 (low)             1,509                   88
                             Strata 2 (medium)             508                    128
                               Strata 3 (high)             83                     83
  Sample 3 (Forms 8872)                                  18,484                   30


We estimated these Section 527 political organizations may owe $17 million in additional tax
and penalties. To arrive at our estimates, we:
   1. Projected the results of Sample 1 to the universe and, based on a 90 percent confidence
      level, estimated 580 Section 527 political organizations filed Form 8871 untimely and
      may be subject to approximately $9.4 million in tax. The estimated number of
      political organizations filing an untimely Form 8871 was calculated by multiplying the
      universe of Forms 8871 times the percentage of untimely Forms 8871 in our sample
      (8,458 * .06859 ≅ 580). The $9.4 million in taxes was estimated by multiplying the
      average potential penalty amount for contributions received by these political
      organizations prior to the filing of Forms 8871 by the universe of Forms 8871
      ($1,110.59897 * 8,458 ≅ $9,393,446).
   2. Projected the results of Sample 2 (by strata) to each universe and, based on a 90 percent
      confidence level, estimated 248 Section 527 political organizations that filed late or
      incomplete Forms 8872 may be subject to over $7.5 million in penalties. The estimated
      number of political organizations filing an untimely Form 8872 was calculated by
      multiplying the universe of Forms 8872 by the weighted percentage of untimely
      Forms 8872 in our sample (2,100 * .03524 ≅ 74). The estimated number of political
      organizations filing an incomplete Form 8872 was calculated by multiplying the universe
      of Forms 8872 by the weighted percentage of incomplete Forms 8872 in our sample
      (2,100 * .08292 ≅ 174). The total number of estimated Section 527 political
      organizations that filed late or incomplete Forms 8872 was calculated by adding the
      estimated number of untimely Forms 8872 to the estimated number of incomplete Forms
      8872 (74 + 174 = 248).
       The estimated amount of penalties that Section 527 political organizations may be subject
       to for the untimely filing of Forms 8872 was calculated by multiplying the average
       weighted penalty dollars for untimely Forms 8872 by the universe of Forms 8872
       ($1,687.22207 * 2100 ≅ $3,543,166). The estimated amount of penalties that
       Section 527 political organizations may be subject to for filing incomplete Forms 8872
                                                                                        Page 23
  Additional Actions Are Needed to Ensure Section 527 Political Organizations
            Publicly Disclose Their Activities Timely and Completely

   was calculated by multiplying the average weighted penalty dollars for incomplete
   Forms 8872 by the universe of Forms 8872 ($1,891.35552 * 2,100 ≅ $3,971,847). The
   total estimated penalties for Section 527 political organizations that filed late or
   incomplete Forms 8872 was calculated by adding the estimated penalty amount for
   untimely Forms 8872 to the estimated penalty amount for incomplete Forms 8872
   ($3,543,166 + $3,971,847 = $7,515,013).
3. Determined 4 Section 527 political organizations that filed late or incomplete paper
   Forms 8872 may be subject to $41,970 in penalties. These results are not being
   projected, as this is a judgmental sample.
4. The overall total of $17 million in taxes and penalties was calculated by adding the
   amounts due for the untimely filing of Forms 8871, untimely filing of Forms 8872,
   incomplete filing of Forms 8872, and untimely paper filing for Forms 8872
   ($9,393,446 + $3,543,166 + $3,971,847 + $41,970 = $16,950,429) or $17 million when
   rounded.




                                                                                     Page 24
        Additional Actions Are Needed to Ensure Section 527 Political Organizations
                  Publicly Disclose Their Activities Timely and Completely

                                                                                      Appendix V


    Organizations Required to Notify the Internal Revenue Service of Section 527
                Status and Report Contributions and Expenditures

Every political organization that is to be treated as a tax-exempt political organization under
Internal Revenue Code (I.R.C.) Section (§) 5271 must electronically file a Political Organization
Notice of Section 527 Status (Form 8871), except:
    •   An organization that reasonably expects its annual gross receipts to always be less than
        $25,000. I.R.C. § 501(c).2
    •   A political committee required to report under the Federal Election Campaign Act of
        1971 (2 U.S.C. 431 et seq.).
    •   A political committee of a State or local candidate.
    •   A State or local committee of a political party.
    •   A tax-exempt organization described in I.R.C. § 501(c) that is treated as having political
        organization taxable income under I.R.C. § 527(f)(1).
Every Section 527 political organization that accepts a contribution or makes an expenditure for
an exempt function during a calendar year must file a Political Organization Report of
Contributions and Expenditures (Form 8872), except: a political organization that is not required
to file Form 8871, a political organization that is subject to tax on its income because it did not
file or amend a Form 8871, or a Qualified State or Local Political Organization (QSLPO).
Public Law 107-2763 defines QSLPOs as political organizations with the following
characteristics:
    •   All of their exempt functions relate solely to the purpose of influencing or attempting to
        influence the selection, nomination, election, or appointment of any individual to any
        State or local public office or office in a State or local political organization.
    •   State law requires the organization to report contribution and expenditure information to
        the State that is similar to the information required to be reported to the Internal Revenue
        Service.
    •   The organization files the reports with the State.
    •   The organization and State make these reports available to the public.


1
  I.R.C. § 527 (2003).
2
  I.R.C. § 501(c) (2003).
3
  Pub. L. No. 107-276, 116 Stat. 1929 (2002).
                                                                                             Page 25
    Additional Actions Are Needed to Ensure Section 527 Political Organizations
              Publicly Disclose Their Activities Timely and Completely

•   No Federal Government officeholder or candidate controls or materially participates in
    the organization, solicits contributions to the organization, or directs disbursements from
    the organization.




                                                                                        Page 26
Additional Actions Are Needed to Ensure Section 527 Political Organizations
          Publicly Disclose Their Activities Timely and Completely

                                                                    Appendix VI


              Management’s Response to the Draft Report




                                                                          Page 27
Additional Actions Are Needed to Ensure Section 527 Political Organizations
          Publicly Disclose Their Activities Timely and Completely




                                                                          Page 28
Additional Actions Are Needed to Ensure Section 527 Political Organizations
          Publicly Disclose Their Activities Timely and Completely




                                                                          Page 29
Additional Actions Are Needed to Ensure Section 527 Political Organizations
          Publicly Disclose Their Activities Timely and Completely




                                                                          Page 30
